I

APPENDIX A-E

la.
APPENDIX A

SUPREME COURT

MAR 2 5 2020

Court of Appeal, Third Appellate District - No. CO87240

Jorge Navarreie Cierk

S260507

IN THE SUPREME COURT OF CALIFORNIA

Deputy

En Banc

TIMOTHY JAMES DIMMER, Plaintiff and Appellant,
v.
CONTRACTORS' STATE LICENSE BOARD et al., Defendants and Respondents.

The petition for review is denied.

CANTIL-SAKAU YE

Chief Justice

2a.
APPENDIX B

Filed 1/17/20 Dummer v. Contractors’ State License Board CA3

NOT TO BE PUBLISHED
or ordered published for purposes of rule 8.1115._____

IN THE COURT OF APPEAL OF THE STATE OF CALIFORNIA
THIRD APPELLATE DISTRICT
(Sacramento)

TIMOTHY JAMES DUMMER,

C087240
(Super. Ct. No. 34-201600200378-CU-MC-GDS)

Plaintiff and Appellant,
v.
CONTRACTORS' STATE LICENSE BOARD et al.,
Defendants and Respondents.

MODIFICATION OF
OPINION AND DENIAL OF
PETITION FOR
REHEARING
[NO CHANGE IN
JUDGMENT]

THE COURT:
Appellant filed a petition for rehearing with this court. It is hereby ordered that
the petition for rehearing is denied.

1

3 a.

It is also ordered that the opinion filed herein on December 30,2019, be modified
as follows:

Under Section B. on page 5, the word “proposed” is to be inserted in the

1.

third sentence. That sentence will now read:
Section 19087 establishes the FTB’s authority to issue a proposed deficiency
assessment if a taxpayer fails to file a return, providing:

This modification does not change the judgment.

FOR THE COURT:

Is/
Duarte, Acting P. J.

Is/
Renner, J.

Is/
Krause, J.

2

4a.
APPENDIX C
Filed 12/30/19 Dummer v. Contractors’ State License Board CA3 (unmodified opinion)

NOT TO BE PUBLISHED

IN THE COURT OF APPEAL OF THE STATE OF CALIFORNIA
THIRD APPELLATE DISTRICT
(Sacramento)

C087240

TIMOTHY JAMES DUMMER,

(Super. Ct. No. 34-201600200378-CU-MC-GDS)

Plaintiff and Appellant,
v.
CONTRACTORS' STATE LICENSE BOARD et al.,
Defendants and Respondents.

Plaintiff Timothy James Dummer appeals from a trial court judgment that the
Franchise Tax Board (FTB) lawfully assessed taxes against him, the Contractors State
License Board (CSLB) lawfully suspended his contractor’s license due to his outstanding
state tax liability, and he was not entitled to a pre-suspension hearing before the CSLB
because he failed to protest the tax assessments before the FTB. On appeal, plaintiff
claims that the trial court misinterpreted the statutory scheme under which the FTB
assessed taxes against him. We disagree and affirm the judgment.

1

5a.

FACTUAL AND PROCEDURAL BACKGROUND
Factual Background
During tax years 2006, 2010, and 2011, plaintiff earned income from construction
work performed in California, but did not file state income tax returns. The FTB issued
proposed tax assessments for the relevant years using estimates of plaintiffs income from
other sources. The FTB mailed notice of the proposed assessments to the address
Dummer had on file with the CSLB. At trial, the court found that plaintiff received
notice of the proposed assessments.
Plaintiff did not protest the FTB’s proposed assessment for 2006 or 2011. Plaintiff
responded to the FTB’s proposed assessment for 2010, but the FTB did not recognize his
response as a protest. The FTB sent a protest clarification letter stating that if plaintiff
did not respond within 30 days, no hearing would occur and the proposed assessment
would become final. Plaintiff did not respond to the FTB’s clarification letter, and the
assessments for 2006, 2010, and 2011 became final.
Plaintiff did not pay the assessed taxes. Per the FTB’s request, the CSLB
suspended plaintiffs contractor’s license for failure to pay the assessed taxes.
Procedural Background
Plaintiff filed a complaint seeking injunctive relief. He alleged the CSLB violated
his right to due process by suspending his contractor’s license without a hearing, and the
FTB violated Revenue and Taxation Code section 19044,1 which authorizes taxpayers to
file written protests challenging the FTB’s proposed assessments.
Defendants FTB and CSLB argued in a series of demurrers that the trial court
lacked jurisdiction to consider plaintiffs claims and that plaintiffs allegations did not
state a valid cause of action. (Code Civ. Proc., § 430.10, subds. (a), (e).) Defendants

1 Further undesignated statutory references are to the Revenue and Taxation Code.
2

6a.

asserted plaintiff was required to file timely protests and pay the tax assessments and then
he could seek a refund. (Cal. Const., art. XIII, § 32; § 19381.)
The trial court sustained with leave to amend defendants’ demurrer to plaintiffs
claim that he was entitled to a hearing before the CSLB suspended his contractor’s
license. The court determined that statutory law afforded plaintiff sufficient procedures
to challenge the proposed tax assessment through the FTB such that due process did not
necessitate a pre-suspension hearing before the CSLB.
The trial court also sustained with leave to amend defendants’ demurrer to
plaintiffs claim that the FTB did not comply with section 19044 due to plaintiffs failure
to file a timely protest, which would have triggered the FTB’s duty to reconsider the
proposed tax assessment.
Plaintiff filed a first amended complaint that amended his due process claim to
include allegations the FTB violated his due process rights by failing to properly serve
him with notice of their intent to take his property, failing to set a hearing before an
impartial body, and failing to adjudicate the matter. Defendants again demurred on the
grounds that the trial court lacked jurisdiction to hear plaintiffs claims due to his failure
to pay and protest. The court overruled defendants’ demurrer, explaining that it could not
resolve factual questions of whether the FTB provided adequate notice or ignored
plaintiffs protests. The court also concluded that plaintiff had sufficiently alleged he was
entitled to litigate the issue of his residency by claiming he properly protested the FTB’s
proposed assessments. Finally, the court again sustained with leave to amend defendants’
demurrer to plaintiffs facial challenge to Business and Professions Code section 7145.5
(authorizing the CSLB to suspend his contractor’s license), which plaintiff claimed
unconstitutionally violated his right to due process.
In his second amended complaint, plaintiff amended his challenge to Business and
Professions Code section 7145.5 to label it “as applied.” The trial court overruled the

3

7a.

demurrer because sustaining it would have required the court to review extrinsic
evidence.
Following a bench trial on the second amended complaint, the trial court issued a
Notice of Decision. The court found that the FTB’s process for issuing assessments
followed normal statutory procedures, which included estimating plaintiffs income. The
court also found that the CSLB’s suspension of plaintiffs contractor’s license was valid
and that he was not entitled to a pre-suspension hearing before the CSLB because he was
afforded multiple opportunities to challenge the FTB’s proposed assessments before they
became final.
Plaintiff timely appeals from the ensuing judgment in defendants’ favor.
DISCUSSION
I
Statutory Framework
A. Introduction
Everyone who owes California state income tax must file a return for the relevant
tax year. (§ 18501.) If a taxpayer files a return the FTB determines is deficient, the FTB
will issue a notice of proposed assessment for the additional tax owed. (§§ 19031-19036,
19043.) The taxpayer has the right to submit a written protest to the FTB within 60 days
of the notice of the proposed assessment specifying the grounds on which the protest is
based. (§ 19041.) If the FTB receives a response to a notice of proposed assessment that
is deemed not to constitute a proper protest, the FTB may send a letter explaining that the
response was not a proper protest and extend the protest deadline. Proper protests
received before the extended deadline are treated like any other protest. If no protest is
filed, the proposed deficiency assessment becomes final. (§ 19042.)
If a proper protest is filed, the FTB must reconsider the deficiency assessment and
hold an oral hearing if the taxpayer so requests. (§ 19044.) If the taxpayer does not
request a hearing, the FTB’s action upon protest becomes final 30 days from the date the
4

8a.

FTB mails notice of its action to the taxpayer, unless the taxpayer appeals to the State
Board of Equalization (SBE). (§§ 19045, 19046.) If the taxpayer appeals the FTB’s
decision to the SBE, the SBE hears the appeal and then notifies the parties of its
determination. (§19047.) The taxpayer may petition the SBE for rehearing. (§ 19048.)
In some circumstances, the FTB may determine that an assessment and collection
of tax will be jeopardized by delay. (§§ 19081-19086.) In those situations, which are
relatively rare and often occur when the taxpayer is engaged in illegal activity, the FTB
may issue a jeopardy assessment, which is a demand for immediate payment. (§§ 1908119083.) (RT 80,112) Because jeopardy assessments authorize the immediate seizure of
property, they are subject to strict internal procedures, including securing the written
consent of the FTB’s chief counsel. (§ 19084.)
Sections 19031 through 19067 govern the procedures for deficiency assessments
and are in article 3 (entitled Deficiency Assessments) of chapter 4 of part 10.2 of division
2 of the Revenue and Taxation code. The procedures related to jeopardy assessments are
set forth in article 5 (entitled Jeopardy Assessments) of chapter 4 of part 10.2 of division
2 of the Revenue and Taxation Code.
B. Section 19087
Section 19087 is within article 5, entitled Jeopardy Assessments. The relevance of
this placement is discussed at length post. Section 19087 establishes the FTB’s authority
to issue a deficiency assessment if a taxpayer fails to file a return, providing: “(a) If any
taxpayer fails to file a return, or files a false or fraudulent return with intent to evade the
tax, for any taxable year, the [FTB], at any time, may require a return or an amended
return under penalties of perjury or may make an estimate of the net income, from any
available information, and may propose to assess the amount of tax, interest, and
penalties due. All the provisions of this part relative to delinquent taxes shall be
applicable to the tax, interest, and penalties computed hereunder.

5

9a.

“(b) When any assessment is proposed under subdivision (a), the taxpayer shall
have the right to protest the same and to have an oral hearing thereon if requested, and
also to appeal to the board from the [FTB’s] action on the protest; the taxpayer must
proceed in the manner and within the time prescribed by Sections 19041 to 19048,
inclusive.” (Referring to the deficiency assessment protest provisions described, ante.)
II
California Constitution Article XIII, Section 32: “Pay Now, Litigate Later ”
Plaintiff contests the trial court’s interpretation of the statutory framework, which
authorized the FTB to issue tax assessments against him. Defendants respond that article
XIII, section 32 of the California Constitution, known as the “pay now, litigate later” rule
in tax cases, bars the challenge.2 The rule, which is codified in sections 19381 and
19382, limits the ability of the courts to hear matters and issue relief that would interfere
with the state’s collection of taxes. (Western Oil & Gas Assn. v. State Bd. ofEqualization
(1987) 44 Cal.3d 208,213.) The rule’s prohibition on pre-payment litigation is intended
“to allow revenue collection to continue during litigation so that essential public services
dependent on the [taxes] are not unnecessarily interrupted. [Citation.]” {Pacific Gas &
Electric Co. v. State Bd. ofEqualization (1980) 27 Cal.3d 277, 283.) Accordingly, in
determining whether the rule prohibits a taxpayer’s prepayment tax-related action,
U 6

[t]he relevant issue is whether granting the relief sought would have the effect of

impeding the collection of a tax.’ ” (Water Replenishment Dist. ofSouthern California v.
City of Cerritos (2013) 220 Cal.App.4th 1450,1465.)

2 Article XIII, section 32 provides: “No legal or equitable process shall issue in any
proceeding in any court against this State or any officer thereof to prevent or enjoin the
collection of any tax. After payment of a tax claimed to be illegal, an action may be
maintained to recover the tax paid, with interest, in such manner as may be provided by
the Legislature.” Although plaintiff did not respond to this argument in his reply brief
because he claimed he did not receive defendants’ brief, he was permitted to argue this
issue at oral argument.
6

10a.

Our Supreme Court has recognized a narrow exception to the “pay first, litigate
later” rule. “The ban on prepayment judicial review found in the state Constitution must
yield... to the requirements of the federal Constitution [citation] ....” {Western Oil &
Gas Assn. v. State Bd. ofEqualization (1987) 44 Cal.3d 208, 213 [as modified Mar. 10,
1988] (Western Oil) [superior court had jurisdiction to determine whether the SBE’s
request for information offended the prohibition against unreasonable searches and
seizures or violated the right of privacy or the privilege against self-incrimination].) “The
court’s inquiry necessarily must be limited, however, to avoid undue interference with the
collection of taxes.” {Western Oil, supra, 44 Cal.3d at p. 214.) For example, in Western
Oil, our Supreme Court concluded, “The role of the court in assessing the propriety of a
prepayment challenge to [an SBE] request for information is not to determine the
ultimate validity of the assessment to which the [SBE’s] inquiry is directed; the exclusive
remedy for that relief is the suit for refund after payment. [Citation.] The court at this
preliminary stage may only examine the [SBE’s] authority to undertake the inquiry.”
{Ibid.)
“[T]he appropriate standard for judicial intervention [is] that invoked under the
similar anti-injunction statute for federal tax matters[;]... prepayment relief must be
limited to those situations in which it is clear that ‘ “under no circumstances” can the
government prevail.’ [Citation.] ‘Only if it is ... apparent that, under the most liberal
view of the law and the facts, the [government] cannot establish its claim, may the suit
for an injunction be maintained.’ [Citation] Put another way, if the [SBE] has no
conceivable basis in law or fact for assessing a tax on a given piece of property, then it
cannot constitutionally demand information from a taxpayer that would be relevant only
to such a tax.” {Western Oil, supra, 44 Cal.3d at p. 214, fh. omitted.)
Defendants appear to argue that we lack appellate jurisdiction to hear plaintiff’s
appeal; they argue that plaintiff “should be required to pay the tax and complete the
administrative process before this or any other court addresses his arguments.” But they
7

11a.

do not argue this appeal should be dismissed, nor do they explain why the general rule
that an aggrieved party may appeal a final judgment does not apply here. (See Code Civ.
Proc., § 904.1, subd. (a) [authorizing appeals from final judgments]; Gibson v. Savings &
Loan Commissioner (1970) 6 Cal.App.3d 269, 271 [final judgment is “a judgment
terminating the proceeding below and finally determining the rights of the parties
therein”; Code Civ. Proc., § 902 [party taking appeal must be “aggrieved”]; County of
Riverside v. Public Employment Relations Bd. (2016) 246 Cal.App.4th 20, 27 [party
against whom an appealable order or judgment is entered is an “aggrieved” party].)
Indeed, defendants point us to no authority supporting their suggestion that plaintiff is
prohibited from appealing the judgment here, thus any intended argument in that regard is
forfeited. (Ewald v. Nationstar Mortgage, LLC (2017) 13 Cal.App.5th 947, 948 [“We
repeatedly have held that the failure to provide legal authorities to support arguments
forfeits contentions of error”].)
To the extent that defendants intended to argue that the trial court lacked
jurisdiction to hear plaintiffs claims, they do not make the only argument available
without filing a cross appeal: that the trial court erred in overruling their demurrers.
(See, e.g., Casterson v. Superior Court (2002) 101 Cal.App.4th 177, 182 [order
overruling demurrer is not directly appealable but may be reviewed on appeal from the
final judgment].) Defendants failed to explicitly state that argument, identify the
applicable standard of review, or tailor their argument to that standard. (See, e.g., Sonic
Manufacturing Technologies, Inc. v. AAE Systems, Inc. (2011) 196 Cal.App.4th 456, 465
[“ ‘Arguments should be tailored according to the applicable standard of appellate
review

5 55

and “[f]ailure to acknowledge the proper scope of review is a concession of a

lack of merit”].) Indeed, defendants never articulate that argument.
Thus defendants have forfeited any arguments regarding jurisdiction and we next
consider plaintiffs claims on their merits.

8

12a.

Ill
Interpretation ofDeficiency Assessment Statutes
Plaintiff disputes defendants’ and the trial court’s interpretation of the legal
framework governing the FTB’s authority to issue assessments for deficient tax returns,
tax returns not filed, and jeopardy assessments.
A. Permissible Deficiency Assessments Pursuant to Section 19087
Plaintiff first argues that the FTB may not issue a deficiency assessment under
section 19087 where the assessment is not in jeopardy. He bases that argument on
section 19087’s placement in article 5 (Jeopardy Assessments), rather than article 3
(Deficiency Assessments).
The construction and interpretation of a statute is a question of law that we
[A]s

consider de novo on appeal. {Burden v. Snowden (1992) 2 Cal.4th 556, 562.)
with any statute, we strive to ascertain and effectuate the Legislature’s intent.

9 59

[Citations.] “Because statutory language ‘generally provide[s] the most reliable
indicator’ of that intent [citations], we turn to the words themselves, giving them their
‘usual and ordinary meanings’ and construing them in context [citation].” [Citation.] If
the language contains no ambiguity, we presume the Legislature meant what it said, and
the plain meaning of the statute governs. [Citation.] If, however, the statutory language
is susceptible of more than one reasonable construction, we can look to legislative history
in aid of ascertaining legislative intent.’ ” {People v. Allegheny Casualty Co. (2007) 41
Cal.4th 704, 708-709.)
The plain language of section 19087 is unambiguous. Section 19087, subdivision
(a) unequivocally authorizes the FTB “at any time” “[i]f any taxpayer fails to file a
return” to “require a return or an amended return under penalties of perjury” or “make an
estimate of the net income, from any available information,” and to use that information
to “propose to assess the amount of tax, interest, and penalties due.” (§ 19087, subd. (a).)
If the FTB proposes an assessment under section 19087 subdivision (a), subdivision (b)
9

13a.

provides that the taxpayer has the right to protest the proposed assessment and request a
hearing and requires the taxpayer to “proceed in the manner and within the time
prescribed by Sections 19041 to 19048, inclusive.” (§ 19087, subd. (b).) “Sections
19041 to 19048, inclusive,” unequivocally refer to the deficiency assessment protest,
hearing, and appeal procedures set out in article 3. (§§ 19041-19048.) We presume the
Legislature meant what it said, and we see no ambiguity or duplicity in the language of
section 19087.
Contrary to plaintiffs assertion, section 19087’s placement in article 5, rather than
article 3, does not create ambiguity in the language of the statute. The general provisions
of the Revenue and Taxation Code provide: “Division, part, chapter, article, and section
headings do not in any manner affect the scope, meaning, or intent of the provisions in
this code.” (§ 6.) The Legislature included a similar provision in division 2, part 10 of
the Revenue and Taxation Code, of which the statutory provisions relevant here are a
part: “Division, part, chapter, article, section and subsection headings contained herein
shall not be deemed to govern, limit, modify, or in any manner affect the scope, meaning,
or intent of the provisions of this part.” (§ 17032.) The mere fact that section 19087 is
located within an article entitled Jeopardy Assessments does not affect the meaning or
intent of the section.3

3 Because we conclude the plain language of section 19087 is unambiguous, we need not
discuss the legislative history of section 19087.
10

14a.

The language of Jeopardy Assessment provisions found in sections 19081,4
19082,5 and 19086 does not affect our analysis. Section 19086, for example, provides,
“In any proceeding brought to enforce payment of taxes made due and payable by this
article, the finding of the [FTB] under Section 19081, whether made after notice to the
taxpayer or not, is for all purposes presumptive evidence that the assessment or collection
of the tax or the deficiency was in jeopardy.” Plaintiff contends that the language of
section 19086 necessarily means that any assessment under section 19087 must be in
jeopardy. But section 19087 does not authorize the FTB to issue an assessment or
otherwise make due or payable payment of taxes. Rather, section 19087 authorizes the
FTB to “propose to assess the amount of tax, interest, and penalties due.” (§ 19087,
subd. (a), italics added.) Such a proposed assessment only becomes a final assessment
pursuant to the procedures set out in sections 19041 to 19048, which are in article 3.
B. Issuing a Deficiency Assessment ifno Tax Return is Filed
Plaintiff next argues that the FTB lacks authority to issue a deficiency assessment
where a taxpayer fails to file a tax return, relying on Wertin v. Franchise Tax Bd. (1998)
68 Cal.App.4th 961 {Wertin). We disagree.

4 Section 19081 provides in relevant part: “If the [FTB] finds that the assessment or the
collection of a tax or a deficiency for any year, current or past, will be jeopardized in
whole or in part by delay, it may mail or issue notice of its findings to the taxpayer,. ..
together with a demand for immediate payment of the tax or the deficiency declared to be
in jeopardy ....”
5 Section 19082 provides in relevant part: “In the case of a tax for a current period, if the
[FTB] finds that the assessment or collection of the tax will be jeopardized in whole or in
part by delay, the [FTB] may declare the taxable period of the taxpayer immediately
terminated. The [FTB] shall mail or issue notice of its finding and declaration to the
taxpayer, together with a demand for a return and immediate payment of the tax based on
the period declared terminated,... and the tax shall be immediately due and payable
whether or not the time otherwise allowed by law for filing the return and paying the tax
has expired.”
11

15a.

In Wertin, the FTB issued an assessment based on federal adjustments to the
Wertins’ tax returns without reviewing the state return the Wertins filed. ( Wertin, supra,
68 Cal.App.4th at pp. 965-966.) The Second Appellate District, Division Seven held that
the assessment was invalid because the Wertins’ return was available, and the FTB did
not take reasonable steps to obtain it before preparing a proposed assessment. (Id. at pp.
966, 972, 975-976.) The court stated, “In summary, we hold where a taxpayer’s return is
available, the FTB may not assess or collect a deficiency without relying on the return.”
(Id. atp. 976.)
Wertin does not stand for the proposition that the FTB may not issue an
assessment unless the taxpayer has filed a return. Rather, Wertin holds the FTB must
review a taxpayer’s return before it issues an assessment if the return is available.
(Wertin, supra, 68 Cal.App.4th at p. 976.) Therefore, we disagree with plaintiff that the
FTB may not issue an assessment under article 3 unless the taxpayer has filed a return.
Indeed, section 19087 specifically permits the FTB to issue a proposed assessment where
a taxpayer failed to file a return, which the taxpayer may then protest by following the
procedures set out in article 3, sections 19041 to 19048.
C. Compliance with Jeopardy Assessments
In the alternative, plaintiff argues that if the FTB is authorized to issue an
assessment under section 19087, the FTB must comply with jeopardy assessment
procedures set out in article 5.6 But as discussed, ante, nothing in section 19087 suggests
that it concerns jeopardy assessments or that the procedural protections related to
jeopardy assessments apply where the FTB proposes a deficiency assessment under that
section. Rather, section 19087 authorizes the FTB to propose an assessment any time a

6 Section 19084 sets out procedural protections for taxpayers subject to jeopardy
assessments.
12

16a.

taxpayer has failed to file a return, and it authorizes the taxpayer to appeal the proposed
assessment according to the procedures set out in sections 19041 to 19048. (§ 19087.)
We conclude that section 19087 authorizes the FTB to issue a proposed
assessment where a taxpayer has failed to file a return.
Having disagreed with each of defendant’s contentions of error, we decline to
disturb the trial court’s decision after trial.
DISPOSITION
The judgment is affirmed.

Is/
Duarte, Acting P. J.

We concur:

/s/
Renner, J.

Is/
Krause, J.

13

17a.
APPENDIX D

1

fOLED/E^DORSED

2

MAY -% 2018

3
4

Sy L Sarno, Deputy Clerk
5
SUPERIOR COURT OF CALIFORNIA

6

COUNTY OF SACRAMENTO

7
8

TIMOTHY JAMES DUMMER,

9

Plaintiff,

10
11
12

v.
CALIFORNIA CONTRACTORS STATE
LICENSE BOARD; CALIFORNIA
FRANCHISE TAX BOARD,

13
14

Defendants.

)
)
)
)
)
)
)
)
)
)
)
)

No. 34-2016-00200378
NOTICE OF DECISION
Trial Date: March 27,2018
Dept.: 29
Judge Geoffrey A. Goodman

15
16

I. INTRODUCTION

17
18
19
20

This case came on for a short-cause trial on March 27,2018, in Department 29 of the aboveentitled Court, before the Honorable Geoffrey A. Goodman. Plaintiff, Timothy James Dummer
appeared pro per. Defendants California Contractors State License Board ("CSLB”) and the
California Franchise Tax Board (“FTB”) were represented by Deputy Attorney General Michael

21

Sapoznikow. This matter is before the Court on Plaintiff’s complaint for injunctive relief to

22

compel the CSLB to reinstate his contractor license which was suspended for non-payment of

23

state income taxes.

24
25
26

Trial was completed within one day. • Testimony was taken from Plaintiff Timothy
Dummer, Greg Heninger of the FTB and Nicole Newman of the CSLB. Documentary evidence
was received.
H. DECISION

27
28

The undisputed facts establish that during the tax years 2006, 2010 and 2011 Plaintiff
earned money from construction work he performed in California but failed to file state income
1
:01152

18a.

1

tax returns or pay income taxes assessed by FTB. This failure to satisfy his tax obligation
resulted in CSLB suspending his license.

2
3

Plaintiff alleges that he was denied procedural due process by not being granted a hearing
before the suspension took effect His complaint is without merit.

4
5
6
7
8
9
10
11

A. FTB Lawfully Assessed Taxes against Plaintiff
FTB’s assessments of taxes in 2006, 2010 and 2011 followed normal statutory procedures.
Since Plaintiff failed to file returns, FTB assessed tax based upon estimates, or reported income
Plaintiff had received in California. i
At trial, Plaintiff contended that the assessments were unlawful because no assessment could
be issued in absence of a tax return, citing Wertin v. Franchise Tax Board (1999) 68 Cal. App.
4th 961. In Wertin, however, the taxpayer had filed a return. The Court in Wertin stated: “[i]n
summary, we hold where a taxpayer's return is available, the FTB may not assess or collect a

12

deficiency without relying on the return.” 68 Cal. App. 4th at 976, emphasis added.

13

Plaintiff acknowledged he never filed a return; moreover, Revenue and Taxation Code section

14

19087 specifically authorizes an assessment based upon estimates if a taxpayer refuses to file a

15
16

return.2
Plaintiff next disputes the validity of the assessments since he did not receive notice of each
of the assessments.

The evidence proved that communications involving each assessment,

17

which included an invitation to file a protest if the taxpayer disputed the assessment, were mailed

18

to Plaintiff at the address he then had on file with the CSLB, his last known address. The

19

mailings thus complied with Revenue and Taxation Code section 18416.

20
21

This mail was

presumably received. Evidence Code section 641. Plaintiff’s self-serving testimony denying he
received the mail is unpersuasive. To the extent he did not receive it, it was because of his
negligence in reading his mail and in keeping FTB advised of his whereabouts.

22

Assessments for the tax years of2006 and 2011 became final in 2008 and 2013, respectively,

23

when Plaintiff failed to protest the assessments. Correspondence for the 2010 tax year was sent

24

in 2012. Plaintiff received the notice of proposed assessment and wrote to FTB that he rejected

25
26
27
28

the assessment and noted that it was without his consent He referred to previous unidentified
i FTB also issued assessments for tax years 2007,2008,20012 and 2013. At trial FTB indicated it was
withdrawing its assessments for those years and proceeded only on tax years 2006,2010 and 2011.
J Plaintiff also contends that since this section foils within the Article entitled Jeopardy Assessments, all of the
procedural requirements related to jeopardy assessments must be followed. However, the evidence established that
the assessments in this case were not jeopardy assessments, and may be considered assessments under section
19033. See Rev. and Tax Code section 19081.

2
:01153

19a.

1

correspondence and offered various definitions of “income”. He asked to be contacted if FTB
needed further information and signed his name “from without the United States.”

2

FTB promptly sent a letter requesting clarification if Plaintiff was protesting the assessment,

3

listing required information and indicating that if he did not respond in 30 days no hearing would

4

be held and the assessment would become final.

5

became final in 2013.

6
7

Plaintiff did not respond and the assessment

In January 2016, FTB sent Plaintiff a Collection Status Notice which informed him that he
owed taxes for multiple tax years and that if the delinquent taxes were not paid FTB would
commence collection actions outlined in the notice.

This initiated an exchange of

8

correspondence and conversations with Plaintiff in which he indicated he would pay the amount

9

owed if FTB met 13 conditions, characterizing himself as “natural bom state citizen of the

10
11

Michigan Republic” among other things.
B. CSLB License Suspension Was Valid

12
13

Business and Professions Code section 7145.5 permits the CSLB to suspend the license of a

14

contractor who has not resolved all outstanding state tax liabilities. On June 3, 2016 FTB send a

15
16

request to the CSLB to suspend Plaintiff’s license advising that he had not paid his outstanding
final tax liability. The CSLB then sent its own notice to Plaintiff indicating that if he did not
satisfy his tax liability within two months his license would be suspended. At trial, the CSLB

17

representative indicated they routinely do so when FTB advises a licensee has an unpaid tax

18

liability.

19
20
21

Plaintiff demanded a hearing with the CSLB in order to contest his tax liability.

CSLB

responded that he would have to address any issues regarding tax liability with the FTB,
indicating it was basing its action on his failure to pay taxes FTB determined were owed. When
the notice period elapsed, CSLB suspended Plaintiff’s license and Plaintiff filed this action.

22
23

C. No Pre-Suspension Hearing Was Required

24
25

In his request for a hearing before the CSLB Plaintiff sought to dispute was his asserted tax
liability. However, Plaintiff had full opportunity to protest assessments before they became final

26
27

and chose not to do so. Plaintiff also had available administrative actions for refunds that he
could have sought after paying disputed taxes. Since Plaintiff failed to take advantage of these

28
3
: 01 £5*4

20a.

1
2

administrative remedies he is barred from relief in this action.

Aronoff v. Franchise Tax Bd.

(1963) 60 Cal. 2d 177, 180.
When a license is suspended based on an existing tax liability and the taxpayer is afforded

3

due process to challenge the underlying tax liability as Plaintiff was here, due process does not

4

require a second, pre-suspension hearing. See DeOrio v. Yee (9th Cir. Apr 11, 2018, No. 16-

5

56337 2018 U.S. App. LEXIS 9057, unpublished; Franceschi v. Yee (9th Cir. Apr. 11, 2018,

6

No. 14-56493, 2018 U.S. App. LEXIS 9038 (upholding denial of separate hearing on medical
license and driver’s license suspensions respectively based on being on list of top tax cheats).

7
8

TIT. CONCLUSION AND PROPOSED JUDGMENT

9
10
11

The Court finds that Plaintiff has failed to prove he was denied due process or that he is
entitled to the relief requested.

The trial of this case was concluded within one day and neither

party requested a statement of decision before the case was submitted. Therefore, pursuant to

12

Civil Procedure Code section 632, no formal statement of decision is required, and this Notice of

13

Decision shall constitute the decision of the Court. Defendants are ordered to prepare, serve and

14

submit a proposed judgment pursuant to the Civil Procedure Code and California Rules of Court.

15
16
17

Such proposed judgment shall be submitted to this Court no laterlhan twenty court days from
service of this Notice of Decision.
I

i

IT IS SO ORDERED

18
19

Dated: May 3,2018
EDFFREY A. GOODMAN
OF THE SUPERIOR COURT

20
21
22
23
24
25
26
27
28
4

:81155

a

21a.
APPENDIX E
11
09:27:47

I'll also move the admission of Mr. Saviano's

1

an hour.

2

deposition.
Throughout that testimony the witnesses will talk

3

The most important documents in this case

4

about documents.

5

are the correspondence between the agencies and Mr. Duiraner.

6

Via Builders also submitted some business records, and there

7

are Mr. Dummer's discovery responses.
This is the first reason defendants should prevail.

8
9

Article 13, Section 32, takes the'jurisdiction of this
And in any proceeding to

10

action away from this Court.

11

enjoin the collection of any tax, it says that the taxpayer

12

must follow the statutory procedures.

13

followed the statutory procedures.

Mr. Dummer has not

Those would involve the administrative claim

14

first

Then he has to ask the agency for a

15

he has to pay the tax.

16

refund with a claim for refunding the agency,

17

fails, then he must bring a claim for a refund from this

18

Court.

19

And you'll hear from the FTB witness, Greg Heninger, that

20

Section 7145.5 is absolutely a collection tool.

21

And if that

That's the process for challenging a tax assessment.

I'm going to go to the merits next.

As I said, there

One is whether the tax was properly

22

are two elements.

23

finalized.

24

through three of the tax years in detail and explain why

25

these were properly finalized,

26

at issue because the FTB started that process over.

27
28

The second is the suspension.

I'm going to go

And the rest of the tax is

So FTB has recognized those tax years are not final.
Those are the three final taxes.

The other three, there

SACRAMENTO COUNTY OFFICIAL COURT REPORTERS

lw

22a.

37
10:15:31

1

plaintiff that plaintiff characterizes as protest are proper

2

protests under the Revenue and Taxation Code,

3

nevertheless responded to plaintiff1s communications.

4

admits that none of its responses to those communications is

5

expressly titled, quote, Notice of Action, end quote.

6

FTB denies the remainder of the request.

MR. SAPOZNIKOW:
that.

As

we're not admitting more than

We're not objecting to the admission to request.
THE COURT:

11
12

And

correct?

9
10

FTB

So you're not objecting to that admission coming in,

7
8

FTB has

Let me just get my notes on this.

So

this is Exhibit 119.
So of Exhibits 119, we are admitting into evidence

13
14

without objection the admissions in number 5 and number 21,

15

correct?

16

MR. DUMMER:

Correct.

17

MR. SAPOZNIKOW:

18

THE COURT:

19

MR. DUMMER:

Yes, Your Honor.

All right.
And with regards to Exhibit 120, which I

20

would like to introduce, I'm only concerned with introducing

21

the response to admission for 21, which is the same response

22

as the Franchise Tax Board.
MR. SAPOZNIKOW:

23

I have no objection.

And I'll

24

disagree that it is the same, but what it is, I have no

25

problem with that.
THE COURT:

26

So these are RFAs to the Contractor's

27

State License Board, as opposed to the Franchise Tax Board,

28

right?
SACRAMENTO COUNTY OFFICIAL COURT REPORTERS

23a.

80
13:42:42

1

filing what?

2

THE WITNESS:

3

THE COURT:

4

THE WITNESS:

5

THE COURT:

Enforcement.

Enforcement and assessments from audits?
Yes.
Okay.

(By Mr. Dummer)

Now, with regard to a jeopardy

6

Q.

7

assessment, is that something that’s used under either rare

8

or particular circumstances?

9

A.

Yes.

10

Q.

And what would occur that would require you to issue

11

somebody a jeopardy assessment?

12

A.

13

a possibility that if we issue an assessment, it would be

14

very difficult to collect from that person,

15

attach their bank account, garnish their wages quickly

16

without having to go through some of the procedural due

' 17

I think it's unusual.

From my understanding, it's when we feel there may be

So we can

process that for the other assessments that we go through.
Now, I've researched jeopardy assessment a little,

18

Q.

19

and is it accurate to say that they are typically used when

20

there is a jeopardy of a person leaving the United States?

21

A.

I would — I don't know.

22

Q.

When preparing an assessment, are there different

23

rules for those making, say, $30,000 a year versus

24

$300,000 a year?

25

A.

No.

26

Q.

So the amount of money somebody makes doesn't affect

27

the procedures within those parameters?

28

A.

I don't know that.

It affects whether or not we issue an assessment
SACRAMENTO COUNTY OFFICIAL COURT REPORTERS

24a.

81
13:44:18

But as far as whether the assessment's made,

1

sometimes.

2

there should be no difference.

3

Q-

4

you to create an assessment at a certain level of income.

5

A.

6

the tax resulting from the income reaches that threshold, we

7

would then issue assessments.

8

Q.

I'm asking if there is a statute that's authorizing

We have our threshold for tax liabilities, and once

That makes sense.
But you don't, say, have a different procedure for

9
10

people making 80,000 than for somebody making 280,000 by

11

statute?

12

A.

No.

13

Q.

Do you know where the authority exists for the

14

proposed assessments that were issued in my case?

15

A.

Yes.

16

Q.

Could you tell the Court what section of the code?

17

A.

Revenue and Taxation Code, section 19087.

18

Q.

Do you happen to know if 19087 is under Article 5?

19

A.

No.

20

MR. DUMMER:

21

THE COURT:

Your Honor, may I approach the witness?
Well, what is he being called for?

I mean, I'm the expert in

22

some sort of expert in the law.

23

the law.

24

what chapter it's in, what's the point?

25
26
27
28

I decide what the law is.

MR. DUMMER:

Is he

So whether he knows

I'm just trying to pin point that we

have a dispute as to where the authority —
THE COURT:

Yeah.

But is this witness called — how

is this witness relevant to me resolving what law applies?
SACRAMENTO COUNTY OFFICIAL COURT REPORTERS

V,

25a.

86
13:51:19

{By Mr. Duiraner)

Just so you know what this is, this

1

Q.

2

is a printout of everything under Article 5 entitled

3

jeopardy assessments,

4

authority you cited is on page 3, 19087.

5

first section there.

6

A.

And then on page 2 is 19084, and the
It's just that

Okay.
{The witness reads.)

7

Does that make sense to you at all?

I mean, have you

8

Q.

9

been in situations where you've seen the chief counsel say,

10

hey, we've got a jeopardy assessment; we need this approved

11

in writing?

12

A.

13

apply to your assessments.

14

Q.

Can you explain why?

15

A.

Because I can see now that it applies to jeopardy

16

assessments, and that's not the kind of assessment that we

17

issued against you.

18

Q.

No.

And not for a case like yours.

19084 doesn't apply.

So I need to touch on that.
When you cited the authority of RTC 19087, which is

19
20

in that jeopardy assessment section, was

21

correct statement or an incorrect statement?
MR. SAPOZNIKOW:

22
23

This doesn't

is that a

I'll object to characterizing that

section as a jeopardy assessment section.

24

THE COURT:

Sustained.

25

He's stated that he doesn't believe the section
You have a believable argument that it does, but I

26

applies.

27

don't — he's stated what his belief is.

28

Q.

(By Mr. Dummer)

I'll cut to the chase.

I think that

SACRAMENTO COUNTY OFFICIAL COURT REPORTERS

26a.

87
13:52:56

1

these assessments are just authorized under a different

2

section, is all I was trying to establish.

3

THE COURT:

4

MR. DUMMER:

5

THE COURT:

6

I can move on.

Which assessments?
My deficiency assessments?
So why don't you ask him about those

sections?
MR. DUMMER:

7

I will.

(By Mr. Dummer)

When you hear the term "return

8

Q.

9

data," what does that mean to you basically — generally?
It means to me much of the information that is

10

A.

11

uploaded into our computer system from a return,

12

doesn't have all details but some details of the return.

13

Q.

14

return filed?

15

A.

No.

16

Q.

Are you familiar with Section 19033?

17

A.

I have an inkling what it is, but not off the top of

18

my head.

19

sure.

20

Q.

By statute, can there be returned data if there is no

Yeah.

That doesn't make sense.

No.

I believe it's for deficiencies, but I'm not quite

Do you mind if I show you Section 19033 and see —
THE COURT:

21

So it

You may approach.

(By Mr. Dummer)

Do you recognize this as perhaps the

22

Q.

23

statute that authorized the assessments?
Just to show you here, this is Article 3, deficiency

24
25

assessment, and 19033 starts there.

26

A.

27

assessments against you.

28

Q.

No.

19087 is a statute that authorizes the

So to make sure I have that clear, 19087, which is
SACRAMENTO COUNTY OFFICIAL COURT REPORTERS

i,

27a.

106
14:23:29

1

addresses, could they come up with a vacant lot as an

2

address?

3

A.

Yes.

4

Q-

Can you think of any reason, in your experience, of

5

why the Franchise Tax Board would send five letters to five

6

different addresses — I'm sorry; five letters to three

7

different addresses?
MR. SAPOZNIKOW:

8
9
10

incomplete hypothetical.

I’ll object.

Again, it's an

He needs to know more for that

question.
What's incomplete about it?

11

THE COURT:

12

MR. SAPOZNIKOW:

I guess if the question was, can you

13

think of any reason why that might happen, I'11 withdraw the

14

objection.

15

THE COURT:

16

THE WITNESS:

You can answer.
Can you repeat that?

{By Mr. Dummer)

17

Q.

18

with this.

Can you think of a — I'll start

Can you think of any reasonable reason that the

19
20

Franchise Tax Board would begin mailing letters

21

consecutively, five of them here, to three different

22

addresses?

23

A.

Returned mail.

24

Q.

So it's possible that that 2013 NPA to the correct

25

address was returned, and they went on a search for

26

addresses?

27

A.

It's possible.

28

Q.

Would you go beyond possible and say that's probable?
SACRAMENTO COUNTY OFFICIAL COURT REPORTERS

28a.

112
14:32:43

1

Q.

Have you seen improvements since then?

2

A.

Oh, yes.

3

Q.

There was some confusion about the different kinds of

4

assessments.

5

to refer to previous testimony, but I'm -

6

jeopardy assessments, filing enforcement assessments, and

7

audit assessments.

I'm going to lead a little because I'm going
so we mentioned

Those were all mentioned, right?

8
9

A.

Yes.

10

Q-

And I think you said those are all examples of

11

deficiency assessments.

12

A.

13

sure that that answer was entirely accurate, when I think

14

about the statute for deficiencies.

15

Q.

16

deficiency assessment?

17

A.

18

filed, and we do an audit and find that adjustments should

19

be made which increase the tax liability.

20

Q.

21

jeopardy assessments are rare, but what's a typical

22

situation where that might get used?

23

A.

24

where we feel that we need to attach their bank account

25

quickly.

26

illegal activity cases.

27

Q-

28

assessment?

Yeah.

Did I get that right?

But — and I'm thinking about it.

I'm not

What's the typical fact pattern for the most common

Deficiency assessments usually come after a return is

The typical fact pattern, and I know you said

I've heard of it being used in cases for drug dealers

So a lot of — the ones that I can remember are

What's a typical situation for a filing enforcement

SACRAMENTO COUNTY OFFICIAL COURT REPORTERS

29a.

113
14:34:23

That's when no return is filed.

And so that's why I

1

A.

2

got confused a little bit about whether or not that was a

3

deficiency because it seems to me — and I

4

deficiency statute requires a return.

5

Q.

6

figure out the same thing.

7

correct conclusion as a lawyer.

9
10

I was staring at the statutes yesterday trying to
I'm not sure I came to the

Are those always in

You mentioned audit assessments.

8

that

a deficiency context?
A.

Yes.
THE COURT:

11

What's the difference?

You just kind of

12

described — when you said the most common deficiency

13

assessment was after a return is filed, and an audit

14

suggests adjustments need to be made.

15

difference between that and an audit assessment?

16

THE WITNESS:

17

THE COURT:

18

THE WITNESS:

So is there a

No.
Same thing?
Yes.

(By Mr. Sapoznikow)

Are there any deficiency

19

Q.

20

assessments where no audit is conducted?

21

A.

22

know, audit

23

of an audit, in that we look at the income.

24

return to audit.

25

know — more semantics, I guess.

26

Q.

27

words are used within the building of FTB than the statutes.

28

That will be general — what I mean by general is I'm asking

I don't think so.

But so audit — what is

you

so filing enforcement assessments have a kind

Right.

But there is no

So it's kind of, you know, more

I don't

And I'm really looking more for how those

SACRAMENTO COUNTY OFFICIAL COURT REPORTERS

30a.

157

16:07:40

1
2

under Article 3.
So that language, No assessment shall be made under

3

this article, doesn't apply to the end result of 087 because

4

that is not an assessment.

5

And this makes sense.

Let me step back to what the
With jeopardy assessments,

6

legislature was trying to do.

7

there's a situation where there is a time pressure.

8

because there is time pressure, you are going to have a very

9

limited due process, at least predeprivation due process.

10

So that's why you either give them the 30 days in 084, or

11

you get the Franchise Tax Board's general counsel to sign

12

off on doing it faster.

13

And

Because it's important when due process is at issue.

14

If you are going to reduce due process, somebody better

15

swear that there is a good reason to do that.

16

important with jeopardy assessments.

17

That's

It's not the case with filing enforcement,

There's

18

no reason to take everybody who fails to file a tax return,

19

take their file to a general counsel, and have them sign a

20

document about it.

21

assessments because of the nature of the activity.

22

legal framework here makes sense.

23

THE COURT:

You might do that with jeopardy
So the

You would concede that it's a little

24

confusing by sticking that in Article 5 — referring to

25

Article 5 and entitling Article 5 as jeopardy assessments?

26

MR. SAPOZNIKOW:

I think the legislature would have

27

done us a service that if they are going to title a section

28

jeopardy assessments, only put jeopardy assessment material
SACRAMENTO COUNTY OFFICIAL COURT REPORTERS

♦r*

31a.

158
16:09:15

1

there, but that's not what they did.

2

titles are not dispositive.
THE COURT:

3

And we know that the

Yes; but specific references to pursuant

4

to this article are dispositive, but your point is that the

5

final assessment is not being done pursuant to that article.

6

MR. SAPOZNIKOW:

7

THE COURT:

Correct.

But wouldn't a jeopardy assessment also

8

refer back to the prior string of citations, 19031, because

9

can't you have a jeopardy assessment where there was a tax

10

return filed?
MR. SAPOZNIKOW:

11

That can occur, but if you're going

12

to do a jeopardy assessment, you have to follow the

13

procedure of 081 through 086.

14

assessment procedure independent of the one that is in the

15

040s.

16

THE COURT:

And that has a separate

So you're saying the article does

17

actually — Article 5 does set forth a specific assessment

18

procedure that jeopardy assessments have to follow, but your

19

argument is 19087 for nonjeopardy assessments refers you

20

back to a specific assessment process that's set forth in

21

19031 et seq.

22

MR. SAPOZNIKOW:

23

THE COURT:

24

I think I at least understand your

argument.

25

MR. SAPOZNIKOW:

26

MR. DUMMER:

27

THE COURT:

28

Correct.

Thank you.

May I add —
Before you sit down, I don't know that

you bothered to put on any evidence of this.

We did hear

SACRAMENTO COUNTY OFFICIAL COURT REPORTERS

•I)

}

' *

32a.

161
6:14:03

1

way that you wouldn't use a traffic ticket to charge

2

somebody with murder, you wouldn't use a proposed assessment

3

to bring somebody in, in some capacity, who hasn't filed a

4

tax return.

5

Going back real quick —

THE COURT:

No, no, no.

You used that analogy

6

before, the ticket; and now you talk about murder, but

7

before I thought it was a little more persuasive, that you

8

wouldn't say that if somebody — it was going to the clean

9

hands argument.

That if somebody just failed to renew their

10

license or something, and they drove once, you wouldn't bar

11

them from ever getting a license again.

12

I get that.

But, again, putting aside the contractor license

13

piece — and I totally get that that's why we're here, but

14

are you really asking me — because doesn't my decision

15

depend on adopting your position that basically says the

16

current tax laws in the State of California basically

17

prevent the State taxing authority from assessing any taxes?

18

I mean, the way you get out of paying taxes in the

19

State of California is simply don't file a tax return, and

20

therefore the federal taxing authority is without any

21

procedure to lawfully finally assess any amount owing.

22

MR. DUMMER:

I think you misunderstand my analogy.
I'm

23

I'm not saying that — I wasn't doing the clean hands,

24

saying that there is a procedure when somebody commits a

25

murder or a crime, there is a procedure that is followed to

26

bring them in and charge them,

27

ticket for that, somebody might argue and say the traffic

28

ticket isn't the right thing.

If somebody used a traffic

You should have done this.

SACRAMENTO COUNTY OFFICIAL COURT REPORTERS

